                                                                  Issue Date
                                                                          March 26, 2007
                                                                  Audit Report Number:
                                                                          2007-CH-1006




TO:        Brian D. Montgomery, Assistant Secretary for Housing-Federal Housing
            Commissioner, H
           John W. Herold, Associate General Counsel for Program Enforcement, CE


FROM:      Heath Wolfe, Regional Inspector General for Audit, 5AGA

SUBJECT: Colony Mortgage Corporation, Supervised Lender, Fairview Park, Ohio, Did
           Not Always Comply with HUD’s Requirements Regarding Underwriting of
           Loans and Quality Control Reviews

                                     HIGHLIGHTS

 What We Audited and Why

             We audited Colony Mortgage Corporation (Colony), a supervised lender approved
             to originate, underwrite, and submit insurance endorsement requests under the U.S.
             Department of Housing and Urban Development’s (HUD) single-family direct
             endorsement program. The audit was part of the activities in our fiscal year 2006
             annual audit plan. We selected Colony for audit because of its high default-to-
             claim rate. Our objectives were to determine whether (1) Colony complied with
             HUD’s regulations, procedures, and instructions in the underwriting Federal
             Housing Administration-insured loans and (2) Colony’s quality control plan, as
             implemented, met HUD’s requirements.

 What We Found

             Colony approved 9 of 22 Federal Housing Administration loans reviewed that did not
             meet HUD’s requirements. The nine loans went to claim between October 1, 2003,
             and September 30, 2005. Further, Colony incorrectly certified to the integrity of the
             data supporting the underwriting deficiencies or to the due diligence used in
             underwriting the nine loans. During the audit period, Colony’s quality control plan
           did not fully comply with HUD’s requirements, and its quality control reviews were
           not adequately performed. Its deficient quality control may have contributed to the
           underwriting deficiencies. For the loans in question, the risk to the Federal Housing
           Administration fund was increased.

What We Recommend


           We recommend that HUD’s assistant secretary for housing-federal housing
           commissioner require Colony to reimburse HUD for any future net loss once the
           associated properties are sold, reimburse HUD nearly $199,000 for the loss incurred
           on four loans already sold and for one over-insured loan, improve its existing
           procedures and controls to ensure that its underwriters follow HUD’s underwriting
           requirements, implement its revised quality control plan, and ensure that quality
           control reviews are performed in accordance with its revised plan. These
           procedures and controls should help ensure that more than $141,000 in Federal
           Housing Administration funds is protected from loss or misuse.

           We also recommend that HUD’s associate general counsel for program
           enforcement determine legal sufficiency and if legally sufficient, pursue remedies
           under the Program Fraud Civil Remedies Act against Colony and/or its principals
           for the nine incorrect certifications cited in this audit report.

           For each recommendation without a management decision, please respond and
           provide status reports in accordance with HUD Handbook 2000.06, REV-3. Please
           furnish us copies of any correspondence or directives issued because of the audit.


Auditee’s Response

           We provided the results of our underwriting and quality control reviews to Colony’s
           management during the audit. We also provided our discussion draft report to
           Colony’s president and HUD’s staff during the audit. We conducted an exit
           conference with Colony’s president on January 10, 2007.

           We asked Colony’s president to provide written comments on our discussion draft
           audit report by January 19, 2007. Colony’s president provided written comments to
           the discussion draft report, dated January 18, 2007. Colony did not agree with
           finding 1, but generally agreed with finding 2. The complete text of the written
           comments, except for 178 pages of documentation that were not necessary to
           understand Colony’s comments, along with our evaluation of that response, can be
           found in appendix B of this report. We redacted the names of borrowers and sellers
           cited in the president’s comments prior to including them in this audit report. A
           complete copy of Colony’s comments plus the documentation was provided to the
           director of HUD’s Quality Assurance Division in Headquarters.




                                              2
                              TABLE OF CONTENTS

Background and Objectives                                                         4

Results of Audit

        Finding 1: Colony’s Underwriting of Nine Federal Housing Administration
                   Loans Contained Deficiencies
                                                                                  5
        Finding 2: Colony Did Not Fully Comply with HUD’s Quality Control
                   Requirements                                                   10

Scope and Methodology                                                             12

Internal Controls                                                                 13

Followup on Prior Audits                                                          15

Appendixes
   A.   Schedule of Questioned Costs and Funds to Be Put to Better Use            16
   B.   Auditee Comments and OIG’s Evaluation                                     17
   C.   Federal Requirements                                                      69
   D.   Summary of Underwriting Deficiencies                                      73
   E.   Narrative Case Presentations                                              74
   F.   Summary of Quality Control Deficiencies Using HUD’s Requirements          86




                                              3
                      BACKGROUND AND OBJECTIVES

Colony Mortgage Corporation (Colony) headquartered in Fairview Park, Ohio, was founded in
1984. It originates Federal Housing Administration loans through its home office and nine branch
offices serving consumers, small to midsize businesses, and government entities in Ohio,
Michigan, and Indiana. In January 1986, the U.S. Department of Housing and Urban Development
(HUD) approved Colony as a supervised direct endorsement lender to originate Federal Housing
Administration-insured loans. As a direct endorsement lender, Colony determines that the
proposed mortgage is eligible for insurance under the applicable program regulations and submits
the required documents to HUD without its prior review of the origination and closing of the
mortgage loan. Colony is responsible for complying with all applicable HUD regulations and
handbook instructions.

As of January 2007, Colony had seven loan correspondents and acted as an agent for one principal
and a principal for two authorized agents. Colony sells all loans that it originates into the
secondary market on a servicing-released basis. It is primarily a retail residential lender offering
Federal Housing Administration, U.S Department of Veterans Affairs, and conventional mortgage
financing.

We audited Colony as part of the activities in our fiscal year 2006 annual audit plan. Between
October 1, 2003, and September 30, 2005, Colony originated/sponsored 2,718 Federal Housing
Administration loans totaling more than $345 million in original mortgage amounts. Of these, 30
loans totaling more than $3.7 million in original mortgage amounts went to claim. Colony’s
default-to-claim rate was 6.69 percent for October 2003 through September 2005.

Our objectives were to determine whether (1) Colony complied with HUD’s regulations,
procedures, and instructions in the underwriting of Federal Housing Administration-insured loans
and (2) Colony’s quality control plan, as implemented, met HUD’s requirements.




                                                 4
                                      RESULTS OF AUDIT

Finding 1: Colony’s Underwriting of Nine Federal Housing
             Administration Loans Contained Deficiencies
Colony approved 9 of 22 Federal Housing Administration loans reviewed that did not fully meet
HUD’s requirements. The nine loans went to claim between October 1, 2003, and September 30,
2005. The underwriting deficiencies were material as well as technical and included errors and
documentation omissions clearly contrary to prudent lending practices. Further, Colony incorrectly
certified to the integrity of the data supporting the underwriting deficiencies or that due diligence was
used in underwriting nine loans. The problems occurred because Colony lacked adequate procedures
and controls over its underwriting of Federal Housing Administration-insured loans and did not have
a quality control plan that complied with HUD’s requirements (see finding 2). As a result of the
improperly underwritten loans, the risk to the Federal Housing Administration fund was increased,
and HUD paid more than $70,000 in claims for three loans and incurred losses of nearly $198,000 on
another four loans.


    Underwriting Deficiencies of
    Federal Housing
    Administration Loans

                 Using HUD’s Single Family Data Warehouse system, we determined that Colony
                 sponsored 2,718 Federal Housing Administration-insured loans totaling more than
                 $345 million between October 1, 2003, and September 30, 2005. Of these, 30 loans
                 totaling more than $3.7 million in original mortgage amounts went to claim. Six of
                 the loans had already been reviewed by HUD’s Quality Assurance Division, and
                 two loans had been sold under HUD’s Accelerated Claim and Asset Disposition
                 program. Therefore, we excluded these eight1 loans from our universe and
                 reviewed the remaining 22 loans for compliance with HUD’s underwriting
                 requirements.

                 Colony improperly underwrote 9 of the 22 loans with a total mortgage value of
                 nearly $1.1 million. Eight of the loans were purchases and one was a refinance
                 loan. As of January 31, 2007, HUD had paid claims of more than $70,000 for three
                 loans with underwriting deficiencies and incurred losses of nearly $198,000 on
                 another four loans.

1
  Prior to our sample selection, loan numbers 201-3402921 and 412-5088277 were not identified as loans reviewed by
HUD’s Quality Assurance Division in HUD’s system, thus the loans were included in our universe. Since we
identified similar findings as HUD during our review of the loans for compliance with HUD’s underwriting
requirements; we excluded the loans from our recommendations for indemnification or reimbursement, but included
the loans in our universe of loans reviewed. Further, loan number 201-340291, was also included in the
recommendation for remedies under the Program Fraud Civil Remedies Act due to an incorrect certification.


                                                        5
Excessive Debt-to-Income Ratios

Colony improperly approved six loans (411-3737859, 413-4227951, 413-4254327,
413-4263790, 413-4288944, and 413-4315823) when the borrowers’ debt-to-
income ratios exceeded HUD’s requirements, and submitted the loans for insurance
without sufficient compensating factors. Paragraphs 2-12 and 2-13 of HUD
Handbook 4155.1, REV-5, specify that the ratio of mortgage payments to effective
income (front ratio) generally may not exceed 29 percent and the ratio of total fixed
payments to effective income (back ratio) may not exceed 41 percent unless
significant compensating factors are presented. The handbook allows greater
latitude in considering compensating factors for the front ratio than the back ratio.
For example, Colony approved loan number 411-3737859 without documenting
any compensating factors on the mortgage credit analysis worksheet when the
borrower’s mortgage payment-to-income ratio exceeded HUD’s maximum
percentage by 9.5 percent.

Understated Liabilites

Colony did not properly assess the borrowers’ financial obligations for two loans
(413-4263790 and 413-4288944). For example, Colony approved loan number
413-4263790 without including all of the borrower’s recurring debts. The
borrower’s credit report, dated December 3, 2003, showed a monthly payment of
$173 to Garden Financial with a balance of $1,598. Although it would not take the
borrower more than 10 months to payoff the debt, we included it in our evaluation
of the borrower’s ability to repay the debt. According to HUD Handbook 4155.1,
REV-5, CHG-1, paragraph 2-11, debts lasting less than 10 months must be counted
if the amount of the debt affects the borrower’s ability to make the mortgage
payments during the months immediately after loan closing; this is especially true if
the borrower will have limited or no cash assets after loan closing. In this instance,
the borrower did not have any assets at closing.

Stability and/or Properly Verified Income Not Documented

Colony did not verify the borrowers’ income or determine income stability for loan
number 413-4254327. The borrower and coborrower did not explain the gaps in
their employment from July 3 through October 2, 2003, and from January 1, 2001,
until October 13, 2003, respectively. HUD Handbook 4155.1, REV-5, CHG-1,
paragraph 2-6, states that the lender must verify the borrower’s employment for the
most recent two full years. The borrower must also explain any gaps in
employment spanning one month or more.

Rental History Not Properly Verified

Colony did not properly verify borrowers’ rental histories. For loan 413-4263790,
it did not verify the borrower’s rental payment history directly from the landlord or
mortgage servicer or through information shown on the credit report as required in



                                  6
HUD Handbook 4155.1, REV-5, CHG-1, paragraph 2-3. For loan number 413-
4288944, Colony did not fully verify the borrower’s history of housing obligations
covering the most recent 12-month period. The credit report indicated that the
borrower’s current landlord refused residence verification. The credit report only
verified a nine-month period.

Automated Underwriting Conditions Not Met

Colony did not ensure that all of the automated underwriting approval conditions
for loan 413-4313543 were satisfied before the loan closed. According to the
underwriting findings report, the borrower’s employment must be supported by the
most recent year-to-date pay stub documenting one full month’s earnings.
However, the loan file did not contain any pay documentation for the borrower.
Further, the borrower had only been employed for one day before the loan was
submitted through the automated desktop underwriter. Fannie Mae’s Single Family
Guide to Underwriting with Desktop Underwriter, chapter 2, states that borrowers
must have been employed a minimum of 30 days in their current positions to use
their income for qualifying purposes.

Source of Funds Not Documented

Colony did not document the sources of borrowers’ funds to close in accordance
with HUD’s requirements. For loan 413-4263790, the borrower received a gift of
equity; however, there was no gift letter in the loan file. For loan number 411-
3737859, the source of the borrower’s funds used at loan settlement was not
disclosed. The borrower paid more than $500 at closing; however, there was no
bank statement or any documentation to indicate that the borrower had enough
funds to close.

Over-insured Mortgage

For loan 413-4255461, Colony overestimated the financing costs and the principal
balance, thereby exceeding HUD’s maximum insurable mortgage limit as outlined
in the Mortgagee Letter 2001-12 and HUD Handbook 4155.1, REV-5. The loan
was funded for $160,014 instead of the maximum amount of $158,867. Therefore,
the loan exceeded the HUD’s maximum mortgage limit by $1,147.

Appendixes D and E of this report provide a detailed description of all loans with
underwriting deficiencies noted in this finding for which we are recommending
indemnfication or reimbursement.




                                  7
Incorrect Underwriter
Certifications Submitted to
HUD

            Of the nine improperly underwritten loans, eight were underwritten manually and
            one was underwritten using an automated underwriting system. We reviewed the
            certifications for nine loans for accuracy. Colony’s direct endorsement underwriter
            incorrectly certified to the integrity of the data for one loan and that due diligence
            was used in underwriting eight loans. When underwriting a loan using an
            automated system, HUD requires direct endorsement underwriters to certify to the
            integrity of the data supplied for a lender used to determine the quality of the loans
            and that the loans ere eligible for insurance. When underwriting a loan manually,
            HUD requires a direct endorsement lender to certify that it used due diligence and
            reviewed all associated documents during the underwriting of the loan.

            Appendix C of this report provides details of the federal requirements regarding
            underwriting of Federal Housing Administration loans as well as a citation under
            the Program Fraud Civil Remedies Act.

Colony’s Underwriting
Procedures and Controls
Inadequate

            Colony needs to improve its existing procedures and controls over its underwriting
            of Federal Housing Administration-insured loans by implementing its revised
            quality control plan (see finding 2). Additionally, it needs to ensure that
            underwriters continue to receive necessary training on HUD’s underwriting
            requirements. Such procedures and controls should ensure the accuracy of
            Colony’s underwriting certifications submitted to HUD.

            HUD’s Quality Assurance Division performed quality assurance reviews of
            Colony’s branch offices and its loan correspondents in September 2003, September
            2004, December 2004, September 2005, March 2006, and January 2006 (see
            Followup on Prior Audits in this audit report). The reviews resulted in findings
            related to loan origination and underwriting. The underwriting deficiencies cited in
            this audit report, along with the prior HUD reviews, clearly demonstrate that
            Colony’s existing underwriting procedures and controls need to be improved to
            ensure compliance with HUD’s underwriting requirements.

            As previously mentioned, Colony incorrectly certified the integrity of the data or
            that due diligence was used in underwriting nine loans. Using the 9 loans with
            incorrect certifications from the 22 loans tested (nine loans that HUD paid $535,396
            in claims and 13 loans where the properties were sold and HUD lost $536,316 as of
            February 28, 2007), we estimate the risk to the Federal Housing Administration to



                                               8
          be at least $141,774 for the next year if Colony does not improve its underwriting
          certification procedures and controls. This amount reflects that, upon sale of the
          mortgaged property, the Federal Housing Administration’s average loss is about 29
          percent of the claim amount based upon statistics provided by HUD.

Recommendations

          We recommend that HUD’s assistant secretary for housing-federal housing
          commissioner require Colony to

          1A.     Reimburse HUD for any future losses from the $70,543 in claims paid on
                  three loans (413-4254327, 413-4263790, and 413-4288944) with
                  underwriting deficiencies. The original mortgage amounts for these loans
                  totaled more than $353,077. The estimated risk to the Federal Housing
                  Administration fund is $20,457.

          1B.     Reimburse HUD $1,147 for the one overinsured loan (413-4255461).

          1C.     Reimburse HUD $197,625 for the actual losses it incurred on four loans (411-
                  3737859, 413-4227951, 413-4313543, and 413-4315823) improperly
                  underwritten since the associated properties were sold.

          1D.     Improve existing procedures and controls to ensure that its underwriters
                  follow HUD’s underwriting requirements. These procedures and controls
                  include but are not limited to implementing its revised quality control plan;
                  continuing to provide training to its underwriters regarding HUD’s
                  underwriting requirements to adequately resolve any discrepancies involving
                  documentation associated with the loans, adequately supporting borrowers’
                  income, obtaining and reviewing documentation that adequately supports the
                  borrowers’ income stability and expenses, and providing oversight or
                  monitoring of its underwriting certifications before submission to HUD.
                  These procedures and controls should help reduce the risk to the Federal
                  Housing Administration fund by at least $141,774.

          We recommend that HUD’s associate general counsel for program enforcement

          1E.     Determine legal sufficiency and if legally sufficient, pursue remedies under
                  the Program Fraud Civil Remedies Act against Colony and/or its principals
                  for incorrectly certifying to the integrity of the data or that due diligence was
                  exercised during the underwriting of nine loans.




                                              9
Finding 2: Colony Did Not Fully Comply with HUD’s Quality Control
                           Requirements
Colony did not fully comply with HUD’s quality control requirements. During the period October
1, 2003, through September 30, 2005, Colony lacked a written quality control plan that met HUD’s
requirements and its quality control reviews were not adequately performed. The problems
occurred because of a lack of management oversight and Colony’s quality control plan was not
consistent with HUD’s requirements. As a result, Colony did not always minimize or prevent
improper underwriting of loans, thus increasing the risk to the Federal Housing Administration
insurance fund.



 Loan Universe and Sample
 Selections

              Using HUD’s Single Family Data Warehouse and Neighborhood Watch systems, we
              identified 100 loans totaling more than $12.5 million in original mortgage amounts
              that were sponsored by Colony and closed between October 1, 2003, and September
              30, 2005. The borrowers defaulted within the first six payments. Of the 100 loans,
              we statistically selected 34 loans totaling more than $4.5 million in original mortgage
              amounts to review for compliance with HUD’s quality control requirements.

 Colony’s Quality Control Plan
 Deficient

              Colony’s quality control plan was deficient. During the period October 1, 2003,
              through September 30, 2005, Colony lacked a written quality control plan that fully
              met HUD’s requirements. HUD’s Quality Assurance Division performed a quality
              assurance review in September 2003 and 2004 and determined that Colony’s quality
              control plan did not contain all of the requirements outlined in HUD Handbook
              4060.1, REV-1. Therefore, Colony revised its quality control plan. When we
              reviewed the revised plan, we determined that it was still deficient.

 Inadequate Quality Control
 Reviews

              Colony did not perform adequate quality control reviews. We statistically selected
              34 loans to review for compliance with HUD’s underwriting requirements. We
              were unable to review one of the loans because at the time of our review Colony
              had not reviewed the loan. Therefore of the 33 loans that Colony quality control
              reviewed, 32 were not performed in accordance with HUD’s quality control
              requirements as follows:



                                                10
                 •   Thirty quality control review sheets did not contain evidence that a
                     reverification of the borrowers’ employment was performed;

                 •   Twenty-four quality control review sheets did not contain evidence that a
                     reverification of the borrowers’ income, deposits, gift letters, or other
                     sources of funds was performed;

                 •   Eight quality control reviews were not performed in a timely manner. The
                     reviews were performed from 71 to 286 days after the loans went into 90-
                     day default;

                 •   Nine quality control review sheets did not contain evidence that a desk
                     review of the appraisal was performed; and

                 •   Two quality control review sheets did not contain evidence that a new credit
                     report was ordered (except for non-Federal Housing Administration
                     streamline refinance or automated underwriting system loans).

Lack of Management Oversight

           Colony’s management did not ensure that its quality control plan, and the reviews
           performed under its plan met HUD’s requirements. As a result of its deficient plan
           and failure to perform adequate quality control reviews, underwriting errors were
           not always minimized or prevented, thus increasing the risk to the Federal Housing
           Administration insurance fund (see finding 1).

           On November 20, 2006, as a result of the audit, Colony revised its quality control
           plan to comply with HUD’s requirements. We reviewed the newly revised plan and
           determined that it was in full compliance. While Colony has taken initial action to
           become compliant with HUD’s requirements, it needs to fully implement its newly
           revised quality control plan to ensure the accuracy, validity, and completeness of its
           loan origination files.

           See appendix F of this report for a listing of the 34 reviewed loans.

Recommendations


           We recommend that HUD’s assistant secretary for housing-federal housing
           commissioner require Colony to

           2A.       Implement its revised quality control plan.

           2B.       Ensure that reviews of its early payment defaulted loans are performed in
                     accordance with the revised plan.


                                               11
                             SCOPE AND METHODOLOGY

We performed our audit between April 2006 and January 2007. We conducted the audit at HUD’s
Columbus field office and Colony’s Fairview Park and Westerville, Ohio, offices. The audit
covered the period October 1, 2003, through September 30, 2005. We extended this period as
necessary. We conducted the audit in accordance with generally accepted government auditing
standards.

To achieve our objectives, we relied on computer-processed data contained in HUD’s Single Family
Data Warehouse and Neighborhood Watch systems for informational purposes only. We also
reviewed HUD’s Homeownership Center and Colony’s hardcopy loan files. In addition, we
interviewed HUD’s and Colony’s management and staff and borrowers’ employers. Further, we
reviewed HUD’s rules, regulations, and guidance for the underwriting and quality control review
of Federal Housing Administration loans.

Using HUD’s data systems, we identified that Colony originated/sponsored 2,718 Federal Housing
Administration loans with closing dates from October 1, 2003, to September 30, 2005. The
original mortgage value of these loans totals more than $345 million. Of the total number of loans
Colony originated/sponsored, HUD paid claims on 30 loans totaling more than $3.7 million in
original mortgage amounts. Of the 30 loans that went to claim, we determined that HUD’s Quality
Assurance Division performed a quality assurance review on eight of the loans. For the eight
loans, Colony violated HUD/Federal Housing Administration requirements, paid an administrative
penalty, or was currently being considered for civil money penalties for seven of the loans as of
March 2007, and resolved the findings cited for the remaining loan with HUD’s Quality Assurance
Division. We also determined that two loans were sold using HUD’s Accelerated Claim and Asset
Disposition program. We excluded 82 of the 10 loans from our universe. We then performed a
100 percent test on the remaining 22 loans that went to claim totaling more than $2.3 million in
original mortgage amounts. We also reviewed the certifications for the nine loans that were
improperly underwritten for accuracy.

Using HUD’s data system and Neighborhood Watch, we identified 100 loans totaling more than
$12.5 million in original mortgage amounts that were sponsored by Colony between October 1,
2003, and September 30, 2005, in which the borrowers defaulted within the first six payments. We
statistically selected 34 loans totaling more than $4.5 million in original mortgage amounts from
the universe of 100 loans to determine whether Colony quality control reviewed the loans in
accordance with HUD’s quality control requirements. Our sampling criteria used a 90 percent
confidence level, 14 percent estimated error rate, and precision of plus or minus 10 percent.



2
  Prior to our sample selection, loan numbers 201-3402921 and 412-5088277 were not identified as loans reviewed by
HUD’s Quality Assurance Division in HUD’s system, thus the loans were included in our universe. Since we
identified similar findings as HUD during our review of the loans for compliance with HUD’s underwriting
requirements; we excluded the loans from our recommendations for indemnification or reimbursement, but included
the loans in our universe of loans reviewed. Further, loan number 201-340291 was also included in the
recommendation for remedies under the Program Fraud Civil Remedies Act due to an incorrect certification.


                                                        12
                              INTERNAL CONTROLS

Internal control is an integral component of an organization’s management that provides
reasonable assurance that the following objectives are being achieved:

   •   Effectiveness and efficiency of operations,
   •   Reliability of financial reporting,
   •   Compliance with applicable laws and regulations, and
   •   Safeguarding resources.

Internal controls relate to management’s plans, methods, and procedures used to meet its mission,
goals, and objectives. Internal controls include the processes and procedures for planning,
organizing, directing, and controlling program operations. They include the systems for
measuring, reporting, and monitoring program performance.



 Relevant Internal Controls

              We determined the following internal controls were relevant to our audit objectives:

              •       Program operations - Policies and procedures that management has
                      implemented to reasonably ensure that a program meets its objectives.

              •       Validity and reliability of data - Policies and procedures that management
                      has implemented to reasonably ensure that valid and reliable data are
                      obtained, maintained, and fairly disclosed in reports.

              •       Compliance with laws and regulations - Policies and procedures that
                      management has implemented to reasonably ensure that resource use is
                      consistent with laws and regulations.

              •       Safeguarding resources - Policies and procedures that management has
                      implemented to reasonably ensure that resources are safeguarded against
                      waste, loss, and misuse.

              We assessed the relevant controls identified above.

              A significant weakness exists if internal controls do not provide reasonable
              assurance that the process for planning, organizing, directing, and controlling
              program operations will meet the organization’s objectives.




                                                13
Significant Weaknesses

           Based on our review, we believe the following items are significant weaknesses:

           •      Colony needs to implement adequate procedures and controls over the
                  underwriting of Federal Housing Administration loans (see finding 1).

           •      Colony needs to implement its revised quality control plan for reviewing
                  loans that are early payment defaults to ensure compliance with HUD’s
                  requirements (see finding 2).




                                            14
                         FOLLOWUP ON PRIOR AUDITS

This is the first audit of Colony by HUD’s Office of Inspector General (OIG). The two most recent
independent auditor’s reports for Colony covered the years ending December 31, 2004, and 2005.
Both reports resulted in no findings regarding underwriting of Federal Housing Administration loans
or quality control reviews.

In September 2003 and December 2004, HUD’s Quality Assurance Division performed a quality
assurance review of Colony’s branch offices in Columbus and Westerville, Ohio. Further, in January
2006 and March 2006, HUD’s Quality Assurance Division performed a quality assurance review of
Colony’s loan correspondents Builder’s Financial Corporation and Dominion Homes Financial
Services, respectively. The reviews resulted in findings related to loan origination, quality control,
underwriting, and accuracy of computerized data. All of the findings were closed as of June 2004,
July 2006, June 2006, and August 2006, respectively.

Additionally in September 2004, HUD’s Quality Assurance Division performed a quality assurance
review of Colony. The review resulted in findings related to underwriting, loan originations, incorrect
certifications, and quality control. Based on the review, HUD considered an administrative action
against Colony and civil money penalties. As a result, Colony paid an administrative fee and the
findings were closed as of August 2006.

Further, in September 2005, HUD’s Quality Assurance Division performed a quality assurance
review of Colony’s loan correspondent Dominion Homes Financial Services. As a result of the
review, HUD was considering administrative action against Colony and civil money penalties. The
review resulted in five findings that included (1) failing to ensure that the borrowers met the minimum
credit requirements, (2) failing to properly verify the borrowers’ income and/or stability of income,
(3) approving loans in which the fixed payment-to-income ratio exceeded HUD/Federal Housing
Administration standards without adequate compensating factors, (4) failing to document the source
and/or adequacy of funds for the downpayment and/or closing costs, and (5) failing to follow the
standards for automated underwriting systems. All findings were still shown as open in HUD’s
system as of March 2007.




                                                  15
                                    APPENDIXES

Appendix A

             SCHEDULE OF QUESTIONED COSTS AND
               FUNDS TO BE PUT TO BETTER USE

            Recommendation        Ineligible        Unsupported   Funds to be put
                number                1/                2/        to better use 3/
                  1A                                  $20,457
                  1B               $ 1,147
                  1C               197,625
                  1D                                                 $141,774
                 Totals           $198,772            $20,457        $141,774


1/   Ineligible costs are costs charged to a HUD-financed or HUD-insured program or activity
     that the auditor believes are not allowable by law; contract; or federal, state, or local
     policies or regulations. The amount shown represents the actual loss HUD incurred when it
     sold the affected properties.

2/   Unsupported costs are those costs charged to a HUD-financed or HUD-insured program or
     activity when we cannot determine eligibility at the time of audit. Unsupported costs
     require a decision by HUD program officials. This decision, in addition to obtaining
     supporting documentation, might involve a legal interpretation or clarification of
     departmental policies and procedures. The amount above reflects that, upon sale of the
     mortgaged property, the Federal Housing Administration’s average loss experience is about
     29 percent of the claim amount based upon statistics provided by HUD.

3/   Recommendations that funds be put to better use are estimates of amounts that could be
     used more efficiently if an OIG recommendation is implemented. This includes reduction
     in outlays, deobligation of funds, withdrawal of interest subsidy costs not incurred by
     implementing recommended improvements, avoidance of unnecessary expenditures noted
     in preaward reviews, and any other savings that are specifically identified. Implementation
     of our recommendation to indemnify loans that were not originated in accordance with
     Federal Housing Administration requirements will reduce the Federal Housing
     Administration’s risk of loss to the insurance fund. The amount above reflects that, upon
     sale of the mortgaged property, the Federal Housing Administration’s average loss
     experience is about 29 percent of the claim amount based upon statistics provided by HUD.




                                               16
Appendix B

         AUDITEE COMMENTS AND OIG’s EVALUATION


Ref to OIG Evaluation    Auditee Comments




                           17
Ref to OIG Evaluation   Auditee Comments




Comment 1




                          18
Ref to OIG Evaluation   Auditee Comments




Comment 2




                          19
Ref to OIG Evaluation   Auditee Comments




                          20
Ref to OIG Evaluation   Auditee Comments




Comment 3

Comment 4




                          21
Ref to OIG Evaluation   Auditee Comments




                          22
Ref to OIG Evaluation   Auditee Comments




Comment 5




                          23
Ref to OIG Evaluation   Auditee Comments




                          24
Ref to OIG Evaluation   Auditee Comments




Comment 6




                          25
Ref to OIG Evaluation   Auditee Comments




                          26
Ref to OIG Evaluation   Auditee Comments




Comment 7




                          27
Ref to OIG Evaluation   Auditee Comments




                          28
Ref to OIG Evaluation   Auditee Comments




Comment 8




                          29
Ref to OIG Evaluation   Auditee Comments




Comment 9




                          30
Ref to OIG Evaluation   Auditee Comments




Comment 10




                          31
Ref to OIG Evaluation   Auditee Comments




Comment 11




                          32
Ref to OIG Evaluation   Auditee Comments




                          33
Ref to OIG Evaluation   Auditee Comments




Comment 12




                          34
Ref to OIG Evaluation   Auditee Comments




Comment 13




                          35
Ref to OIG Evaluation   Auditee Comments




Comment 14




                          36
Ref to OIG Evaluation   Auditee Comments




Comment 15




                          37
Ref to OIG Evaluation   Auditee Comments




Comment 16




                          38
Ref to OIG Evaluation   Auditee Comments




Comment 17




                          39
Ref to OIG Evaluation   Auditee Comments




Comment 18




                          40
Ref to OIG Evaluation   Auditee Comments




Comment 19




Comment 20




                          41
Ref to OIG Evaluation   Auditee Comments




Comment 21




                          42
Ref to OIG Evaluation   Auditee Comments




Comment 22




                          43
Ref to OIG Evaluation   Auditee Comments




                          44
Ref to OIG Evaluation   Auditee Comments




Comment 23




Comment 24




                          45
Ref to OIG Evaluation   Auditee Comments




Comment 25




Comment 26




                          46
Ref to OIG Evaluation   Auditee Comments




Comment 27




                          47
Ref to OIG Evaluation   Auditee Comments




Comment 28




                          48
Ref to OIG Evaluation   Auditee Comments




                          49
Ref to OIG Evaluation   Auditee Comments




                          50
Ref to OIG Evaluation   Auditee Comments




                          51
Ref to OIG Evaluation   Auditee Comments




Comment 29




                          52
Ref to OIG Evaluation   Auditee Comments




Comment 30




                          53
Ref to OIG Evaluation   Auditee Comments




                          54
Ref to OIG Evaluation   Auditee Comments




Comment 31




                          55
Ref to OIG Evaluation   Auditee Comments




                          56
                         OIG’s Evaluation of Auditee Comments

Comment 1   We provided Colony the opportunity to informally respond to our tentative findings
            during the audit. We considered its comments and revised our conclusions where
            appropriate. We then prepared the discussion draft report and provided Colony an
            opportunity to respond to the draft report in writing. We included its written
            response (minus supporting documentation) in this report along with our evaluation
            of the response. Colony will have further opportunity to provide comments and
            supporting documentation to HUD to resolve the recommendations.

Comment 2   Since issuance of the discussion draft audit report, Colony received a copy of
            HUD’s September 2005 Quality Assurance Division review of its loan
            correspondent Dominion Homes Financial Services. The September 2005 review is
            independent from the review conducted by HUD’s Atlanta Quality Assurance
            Division in 2006. Further, in response to Colony’s comments, we revised the audit
            report to show why the loans were excluded from our review.

Comment 3   Colony contends that $392,000 in claims for five loans hardly demonstrate that
            Colony’s underwriting and origination practices put HUD’s insurance fund at risk.
            We disagree. During the audit, 22 of the loans were reviewed and 9 (40 percent)
            contained underwriting deficiencies. Further, any claim paid by HUD due to
            improper underwriting or loan origination practices puts HUD’s insurance fund at
            risk.

Comment 4   We selected our sample on May 19, 2006, prior to the loans being cited in HUD’s
            system. As a result, we selected and reviewed loans 201-3402921 and 412-
            5088277 during the audit. Loan number 201-3402921 was cited in HUD’s Quality
            Assurance Division’s file number 18852, dated May 24, 2006. Loan number 412-
            5088277 was cited in HUD’s Quality Assurance Division’s file number 16373,
            which was not documented in HUD’s Quality Assurance Document Library System
            as of March 2007.

            We assessed Colony’s position that the two questioned loans previously reviewed
            by HUD’s Quality Assurance Division should be removed. Since loan number 412-
            5088277 was remedied by Colony with a payment of an administrative fee to HUD,
            we revised the audit report to delete all reference to this loan except for explaining
            our methodology regarding the loans reviewed. We also excluded loan number
            201-3402921 from the recommendation for indemnification; however, because
            Colony’s direct endorsement underwriter incorrectly certified that due diligence
            was used in underwriting this loan; the loan was included in the recommendation to
            HUD’s associate general counsel for remedies under the Program Fraud Civil
            Remedies Act.

Comment 5   We disagree with Colony that for loan number 201-3402921 the borrower was
            qualified for the buydown because of an increased earning potential associated with
            shift pay and overtime pay not included as effective income. The borrower’s rate of



                                              57
pay was not consistent. It ranged between $13 and $18 per hour based on
assignment. Therefore, we used the year-to-date amount from the borrower’s most
recent earning statement ending August 22, 2004, to determine that his monthly
income totaled $2,360. The mortgage credit analysis worksheet in the borrower’s
file cited low ratio and income available as compensating factors. These factors
were not sufficient. The borrower earned overtime income; however, the
underwriter did not provide documentation to support an average of the overtime
income and establish an earnings trend to determine whether this income would
more than likely continue for at least three years. Without this information, we are
unable to determine if the borrower would continue to earn overtime in performing
his regular job functions, and if the funds would be consistently earned during or
after the buydown period expired. The borrower’s fixed payment to income ratio
was already 41 percent at the buydown rate. Without attendant increases in income
after the two buydown period, the fixed payment-to-income ratio would be 45.6
percent. Although HUD’s requirement does not require lenders to document
overtime earnings for a two-year period for satisfying the buydown agreement, it
was Colony’s responsibility to document its assessment of the borrower’s potential
for increased income that would offset the scheduled mortgage payment increases.

Although the borrower may have returned to work after being on short-term
disability prior to the loan’s settlement, Colony did not provide documentation
showing the hourly rate the borrower received upon returning to work since the
borrower’s rate of pay varied per assignment.

Additionally, we disagree with Colony that the borrower satisfied the Brown
Forman debt for $1,498. The documentation Colony provided showed that the
borrower satisfied a judgment for the 1st United Labor Credit Union and not the
Brown Forman debt. The borrower stated in his credit explanation letter that the
Credit Union was deducting 25 percent of the balance of $1,964 from of his payroll
check. The borrower’s earning statement ending July 25, 2004, shows the borrower
paid $1,962 for a Cr Levy. This amount coincides with the amount the borrower
stated in his letter of explanation. Also in Colony’s file was an order of satisfaction,
dated August 4, 2004, stating the judgment to the 1st United Labor Credit Union
was paid in full and the judgment was deemed satisfied.

Further, we disagree with Colony that the underwriter properly calculated the
borrower’s qualifying income and recurring liabilities based on the reasons
previously mentioned. Also contrary to Colony’s assertion, the borrower did not
have a substantial cash reserve at the time of closing. The mortgage credit analysis
worksheet, dated September 16, 2004, a few days before the loan closed, showed
the borrower paid a $250 earnest money payment and had $104 in cash assets.

Since HUD’s Quality Assurance Division had previously reviewed the loan and
found similar findings, we did not request indemnification for this loan. However,
we included the loan in our recommendation to HUD’s associate general counsel




                                  58
            for program enforcement to pursue remedies under the Program Fraud Civil
            Remedies Act due to the incorrect certification.

Comment 6   We agree with Colony that for loan number 411-3737859, the borrower received
            aid for her two dependent children rather than unemployment income. Therefore,
            we adjusted our calculation of the borrower’s income to include the amount and
            revised the report accordingly. However, we disagree with Colony that sufficient
            compensating factors were documented to justify exceeding HUD’s limit for the
            mortgage payment expense to effective income ratio by 9.5 percent (38.5 percent).
            HUD Handbook 4155.1, REV-5, paragraph 2-12, states if the mortgage payment
            expense-to-effective income ratio exceeds 29 percent and/or the total fixed
            payment-to-effective income exceeds 41 percent, significant compensating factors
            should be documented and listed on the mortgage credit analysis worksheet. The
            mortgage credit analysis worksheet in the borrower’s file did not contain any
            compensating factors.

            Additionally, contrary to Colony’s assertion that the borrowers had remained debt
            free since the mid-1990s, a credit report, dated January 27, 2004, shows a collection
            account from Verizon West North for $398. The account was opened in December
            2002, and the borrowers’ payments were delinquent in February and July 2003.
            The borrowers provided a money order receipt showing a payment in the amount of
            $225 on April 2, 2004, payable to the collection company for Verizon. However,
            the account number listed on the money order did not match the account number on
            the credit report. The most recent credit report provided by Colony, dated May 13,
            2005, shows the account remains in collection with a past due balance of $398.

Comment 7   We disagree with Colony that for loan number 413-4227951, the borrower’s
            verification of employment showed his base pay increased from $13 per hour, or
            $520 per week, to $600 per week. Actually, the borrower’s hourly pay with his
            previous employer Dupont was nearly $22 or $869 per week. He was employed
            with Dupont from May 27, 2003, through October 12, 2003. The borrower then
            became employed with All American Improvements earning $600 per week on
            October 13, 2003, one month prior to closing. The change in employment resulted
            in a decrease in pay of $269 per week or $1,076 per month.

            We agree with Colony’s reference to HUD requirements that the underwriter is only
            required to document the amount and receipt of the commission income if he or she
            uses it to qualify the borrower for a loan. However, Colony did not recognize its
            responsibility to determine the adequacy of the borrower’s earning potential to
            justify the buydown. After the buydown assistance period, the borrower’s mortgage
            payment-to-income ratio would be 35 percent, and the fixed payment-to-income
            ratio would be 46 percent. HUD’s buydown requirements were designed to ensure
            that the eventual increase in mortgage payments would not affect the borrower
            adversely and likely lead to default.




                                             59
            The underwriter did not prudently determine that the eventual increase in mortgage
            payments would not adversely affect the borrower. This is evident given that the
            borrower’s base pay decreased significantly from his previous employer to his
            current employer. The mortgage credit analysis worksheet in the borrower’s file
            listed low credit use. This factor was not sufficient in determining the borrower’s
            ability to handle the mortgage payment increases. The borrower’s credit report did
            not demonstrate his ability to manage financial obligations. When the borrower
            was earning more income, the credit report identified two collection accounts. One
            account was paid before closing and the other was not paid at the time of our
            review. Therefore, the underwriter did not demonstrate the borrower’s ability to
            manage financial obligations. Although the borrower may receive commission
            income, the stability and consistency of the income was not determined. Further,
            the receipt of the income does not indicate that the borrower had a history of career
            advancements or received training that would enable him for higher future earnings
            as required by HUD.

            Further, the documentation Colony obtained from the employer contained a general
            comment that the employer looks forward to the borrower having a long and
            prosperous career. This document in of itself did not demonstrate that the borrower
            would receive an increase in income during the two years of the buydown period.
            Colony did not determine or show how much of a pay increase the borrower would
            receive as proper justification for the buydown agreement. Additionally, upon
            approval of the loan, the borrower’s housing expenses would increase by $124.
            This amount would be significantly more once the borrower’s mortgage payment
            increased.

Comment 8   We disagree with Colony that for loan number 413-4254327 the underwriter
            demonstrated the borrower’s ability to absorb the payment increases by
            documenting a substantial increase in the borrower’s pay. The document provided
            by Colony, in response the discussion draft audit report, dated October 31, 2003,
            from the borrower’s employer included a general comment that new drivers average
            about $34,000. This figure was an average; therefore, the borrower can earn less
            than or more than the amount. It did not state that the borrower, as a new hire,
            would earn $34,000 per year. However, the document did note that the borrower
            would earn a guaranteed minimum of $600 a week. Therefore, we used this figure
            to determine the borrower’s monthly income of $4,030.

            Further, if the borrower had received an annual salary of $34,000 a year as a truck
            driver, the borrower’s income would have decreased by $3,897 annually since the
            borrower was previously employed as a police officer with an annual salary of
            $37,897. In addition, the verification of employment form, dated October 3, 2003,
            stated the borrower was not entitled to overtime or commission income. It also did
            not show how much of an increase in pay the borrower would receive in the future.

            Colony did not recognize its responsibility to determine the adequacy of the
            borrowers’ earning capacity to justify the buydown. HUD’s buydown requirements



                                              60
            were designed to ensure that the eventual increase in mortgage payments would not
            affect the borrowers adversely and likely lead to default. In this instance, the
            borrowers’ recurring debt was actually $525, instead of $299, and the borrowers’
            housing expenses during the buydown totaled $1,097. However, at the note rate the
            borrowers’ payment would be approximately $1,249, and the borrowers’ mortgage
            payment-to-effective income and fixed payment to income ratios would be 31 and
            44 percent, respectively. Contrary to Colony’s statement that the loan would be
            acceptable under Mortgagee Letter 2005-16, the loan closed in 2003 before the
            effective date of the Letter and the mortgage credit analysis worksheet in the loan
            file did not contain any compensating factors. HUD’s requirements stipulate that
            the mortgage payment-to-effective income and fixed payment to effective income
            should not exceed 29 percent and 41percent, respectively, without sufficient
            compensating factors documented on the mortgage credit analysis worksheet. Since
            this loan was approved under a buydown agreement, Colony was required to
            document that the increased mortgage payments would not adversely affect the
            borrowers by showing that the borrowers had potential for increased income that
            would offset the scheduled payment increases.

Comment 9   We disagree with Colony that for loan number 413-4263790 the underwriter
            properly excluded the $173 monthly payment to Garden Financial because the debt
            had less than 10 months remaining when the loan closed. According to HUD
            Handbook 4155.1, REV-5, CHG-1, paragraph 2-11, debts lasting less than 10
            months must be counted if the amount of the debt affects the borrower’s ability to
            make the mortgage payment during the months immediately after loan closing; this
            is especially true if the borrower will have limited or no cash assets after loan
            closing. The borrower did not have any assets at closing. In addition, we disagree
            with Colony’s comments that compensating factors existed that would offset its
            omission of the $173 monthly payment from the borrower’s credit assessment. The
            omitted debt increased the borrower’s total fixed payment-to-income ratio from
            40.14 percent to 52.50 percent. HUD Handbook 4155.1, REV-5, CHG-1, chapter 2,
            section 5, paragraph 2-12, states if the mortgage payment expense-to-effective
            income ratio exceeds 29 percent and/or the total fixed payment-to-effective income
            exceeds 41 percent, significant compensating factors should be documented and
            recorded on the mortgage credit analysis worksheet.

            The mortgage credit analysis worksheet identified two compensating factors, low
            credit use and low housing. These compensating factors were not adequate to
            support the borrower’s qualifying ratios. For the first compensating factor, the
            borrower had not successfully demonstrated the ability to pay housing expenses
            equal to or greater than the proposed monthly housing expense for the new
            mortgage over the past 12 to 24 months. The borrower’s previous rental payment
            was $194 less than the new mortgage. For the second compensating factor, Colony
            must document the borrower had a demonstrated ability to accumulate savings and
            a conservative attitude toward the use of credit. The borrower only met part of the
            compensating factor since Colony did not provide documentation that the borrower
            demonstrated the ability to accumulate savings.



                                             61
Comment 10 We agree that loan number 413-4288944 met HUD’s buydown requirements and
           revised the report accordingly. However, Colony failed to include all of the
           borrower’s liabilities when evaluating the borrower’s ability to repay the debt. The
           borrower’s credit report as of January 2004 identified two student loans with a total
           monthly payment of $307 that were in deferment status. The loans’ deferment was
           scheduled to end in July 2004 and January 2005, respectively. The loan closed in
           March 2004. According to HUD Handbook 4155.1, REV-5, CHG-1, chapter 2,
           section 4, paragraph 2-11(C), states that if a debt payment, such as a student loan, is
           scheduled to begin within 12 months of the mortgage loan closing, the lender must
           include the anticipated monthly obligation in the underwriting analysis, unless the
           borrower provides written evidence that the debt will be deferred to a period outside
           this time frame.

              Therefore, contrary to requirements in HUD Handbook 4155.1, REV-5, CHG-1,
              paragraph 2-11, there was no documentation to show that the deferment period
              would last at least 12 months beyond the mortgage closing date. Colony provided
              the borrower’s transcript to show that the borrower was a part-time student;
              however, the transcript did show that the borrower requested and received an
              extension of forbearance for the student loans. In addition, we disagree that the
              borrower’s obligation to Bally’s Total Fitness should have been excluded because
              the borrower had 10 payments remaining on the account. HUD Handbook 4155.1,
              REV-5, CHG-1, chapter 2, section 4, states that when computing the debt-to-
              income ratios, the lender must include the monthly housing expense and all
              additional recurring charges extending 10 months or more. With the inclusion of
              the student loans and the three recurring obligations totaling $408, the borrower’s
              fixed payment-to-income ratio when using the reduced interest rate was 60.64
              percent.

              HUD Handbook 4155.1, REV-5, CHG-1, chapter 2, section 5, paragraph 2-12,
              states if the mortgage payment expense-to-effective income ratio exceeds 29
              percent and/or the total fixed payment-to-effective income exceeds 41 percent,
              significant compensating factors should be documented and recorded on the
              mortgage credit analysis worksheet. The compensating factor on the mortgage
              credit analysis worksheet was credit. This compensating factor was not adequate to
              support the borrower’s fixed payment-to-income ratio.

              Moreover, we disagree that Colony sufficiently documented the borrower’s cash
              reserves of $2,386. The borrower’s December 2003 bank statement shows a $2,200
              deposit on December 10, 2003, that was not explained by the borrower as required
              by HUD Handbook 4155.1, REV-5, CHG-1, chapter 2, section 3. Without the
              $2,200 deposit, the borrower’s balance would have been $721. Prior to the deposit
              on December 10, 2003, the borrower received an electronic deposit from her
              employer for $1,953 on December 5; it would be reasonable to question if the
              additional payment was from her employer, since the borrower was paid bi-weekly.
              In addition, the beginning balance for the December 2003 statement was less than
              $21. Further, on December 4, 2003, the borrower’s account was in overdraft by



                                               62
             less than $1 until the borrower’s payroll deposit on December 5. Because Colony
             did not request documentation to support the $2,200 deposit, there is no way of
             determining if the borrower really demonstrated an ability to accumulate savings.

             We agree with Colony that loan number 413-4288944 met HUD’s buydown
             requirements. We revised the audit report to delete all reference to this condition
             (see comment 10). However, we disagree that the borrower’s undocumented
             overtime income directly affected the borrower’s ability to repay the mortgage and
             qualified as a significant factor. Colony did not provide documentation to support
             an average of overtime and establish an earnings trend to determine whether this
             income would more than likely continue for at least three years.

Comment 11 We agree with Colony that for loan number 413-4315823, the borrower’s fixed
           payment-to-income ratio equaled 35.33 percent. The report should have referenced
           the mortgage payment-to-income ratio. Therefore, we revised the report to show
           the borrower’s mortgage payment-to-income as listed on the mortgage credit
           analysis worksheet was 34.39 percent.

             Contrary to Colony’s statement that the borrower worked every other Saturday and
             the pay should be considered additional income, we determined that the pay should
             not have been considered additional income but included in the calculation for
             effective income. The borrower’s verification of employment did not state the
             every other Saturday income is in addition to her effective income. Therefore, the
             Saturday income was reflected as effective income and we calculated it as such.
             Hence, the borrower did not have $150 in additional income. The borrower’s total
             monthly income including the Saturday pay totaled $1,775. With the inclusion of
             this income, the borrower’s mortgage payment-to-income ratio was 32.27 percent
             using the reduced interest rate. However, after the buydown, the ratio would be 39
             percent. Therefore, the additional Saturday income did not directly affect the
             borrower’s ability to repay the debt.

             Although the report should have referenced the mortgage payment-to-income ratio
             instead of the fixed payment-to-income, Colony’s underwriter did not document
             any compensating factors to support the increased qualifying ratio when the loan
             was approved. Therefore, Colony did not comply with HUD’s requirements as it
             relates to recording significant compensating factors on the mortgage credit analysis
             worksheet. The borrower’s annual income for 2003 was $18,955 with an expected
             income of $21,300 for 2004. Therefore, the borrower’s income would increase by
             approximately 12 percent. The borrower qualified for the loan with a mortgage
             payment of $573. The payment, after expiration of the buydown assistance, would
             be approximately $688 and assuming a 12 percent increase in income each year
             through the two years of the buydown agreement, the mortgage payment-to-income
             ratio would be approximately 31 percent. However, there was no indication on the
             verification of employment form or other related documentation in Colony’s file or
             HUD’s casebinder that the borrower would receive an increase in income.




                                              63
              Contrary to Colony’s statement that the borrower demonstrated ability to manage
              financial obligations in such a way that at greater portion of income may be devoted
              to housing expenses, the borrower obtained an account in December 2003 with a
              credit limit of $49 and a balance of $49. Prior to this account being opened, the
              borrower filed for bankruptcy in September 2001 and the bankruptcy was
              discharged in January 2002. Since the discharged bankruptcy, the borrower had not
              yet demonstrated his ability to manage financial obligations and Colony did not
              consider the impact of the borrower’s $288 increase in rental expense.

Comment 12 See comment 5.

Comment 13 See comment 9.

Comment 14 See comment 10

Comment 15 See comment 6.

Comment 16 See comment 4.

Comment 17 We disagree with Colony that for loan number 413-4263790 the borrower’s rental
           verification was obtained directly from the landlord. In the letter that Colony
           provided as supporting documentation, the landlord stated he was providing a copy
           of the letter that he provided to the borrower. He did not state that he provided the
           letter to Colony. In addition, the letter conflicted with the letter in the borrower’s
           loan file. For instance, the letter in the loan file that was used to qualify the
           borrower shows the borrower began renting an apartment from the landlord on
           February 3, 2001. The letter Colony provided to dispute our finding shows the
           borrower had only been a tenant since February 2002.

Comment 18 We disagree with Colony’s position that for loan number 413-4288944 that
           Colony’s underwriter had no reason to believe the borrower’s three-month payment
           history to her current landlord was less than timely. With the previous apartments,
           the borrower was married and her spouse contributed to the living expenses. This
           was the first apartment that the borrower had since her divorce. HUD requirements
           state that the payment history of the borrower’s housing obligations holds
           significant importance in evaluating credit. Colony must determine the borrower’s
           payment history of housing obligations covering the most recent 12-month period.

Comment 19 We disagree with Colony that for loan number 413-4263790 the purchase
           agreement and HUD-1 settlement statement verified the required gift information.
           Neither the purchase agreement nor the HUD-1 settlement statement stated that no
           repayment was required. In accordance with HUD’s requirements, a gift letter from
           the seller must be signed by the donor and borrower that specifies the dollar amount
           of the gift; state that no repayment is required; show the donor’s name, address, and
           telephone number; and state the nature of the donor’s relationship to the borrower.




                                               64
              Colony did not provide any documentation to support its compliance with HUD’s
              requirements.

Comment 20 The loan number referenced in the report was 413-4284327; however, the loan
           number was 411-3737859. We revised the audit report to show the correct loan
           number (See comment 6).

Comment 21 See comment 4.

Comment 22 We disagree that Colony properly obtained a statement from the borrower for loan
           number 201-3402921 to explain insufficient charges. Colony only provided
           documentation to explain the borrower’s overdraft fees and it did not provide an
           explanation from the coborrower for her overdraft or returned check fees. When
           analyzing a borrower’s credit history, Colony should have examined the overall
           pattern of credit behavior. When you consider the overdraft fees, insufficient funds
           penalty fees, and current judgment, these actions are not consistent with Colony’s
           claim concerning the borrowers’ ability to make timely payments on their credit
           obligations. The inability to make timely payments has a direct impact on the
           borrowers’ ability to meet the future housing expense of $1,012, which is an
           increase of $647 from the borrowers’ current housing expense.

              As stated earlier in comment 4, since HUD’s Quality Assurance Division had
              previously reviewed the loan and found similar findings, we did not recommend
              indemnification for this loan; however, we recommended this loan for action under
              the Program Fraud Civil Remedies Act for the incorrect certification.

Comment 23 We commend Colony for bringing this weakness to its employee’s attention in an
           effort to prevent this oversight from recurring in the future.

Comment 24 As stated in the finding for loan number 413-4227951, the borrower received a
           misappropriated federal payment from the U.S Department of Defense. To ensure
           that the borrower would repay the overpayment, the account was sent to collections
           in January 2003. The credit report, dated August 20, 2003, showed that the
           collection account had delinquent payments in April and July 2003. The credit
           report Colony provided dated only nine days after the previous credit report did not
           disclose the borrower’s previous delinquencies, but showed that the $847
           overpayment was past due.

              We agree with Colony that the account had not been past due since April 2003 for
              $122. The $122 was in reference to a collection account with Insight
              Communication. Since both accounts were paid prior to closing, we revised the
              audit report to remove all reference to the U.S Department of Defense and Insight
              Communication collection accounts.

Comment 25 We agree with Colony that the $222 monthly payment to National City for loan
           number 413-4313543 should have been excluded. Therefore, we revised the audit



                                               65
             report to delete all reference to this condition. However, Colony’s underwriter
             inputted into Fannie Mae’s desktop underwriter system $2,532 as the borrower’s
             income when this amount could not be supported by the borrower’s pay
             documentation. The borrower had only been employed for one day before the loan
             was approved. The verification of employment, dated March 10, 2004, revealed
             that the borrower was to start work on March 22, 2004, one day after the desktop
             underwriter run date of March 23, 2004. The loan closed on March 30, 2004, eight
             days after the borrower started his new employment. Fannie Mae’s Single Family
             Guide to Underwriting with Desktop Underwriter, chapter 2, states that borrowers
             must have been employed a minimum of 30 days in their current position to use the
             income for qualifying purposes. The borrower’s monthly pay prior to the loan
             closing was $1,459. With the exclusion of the $222 monthly payment and inclusion
             of the borrower’s previous income, the mortgage payment expense-to-effective
             income ratio was 55.28 percent and the total fixed payment-to-effective income was
             81.65 percent when using the reduced interest rate. The underwriter should have
             resubmitted the loan using the borrower’s monthly income supported by the
             borrower’s pay documentation.

Comment 26 We agree and removed the loan from this audit report.

Comment 27 We disagree that loan number 413-4255461 was not overinsured. The mortgage
           credit analysis worksheet shows the unpaid principal balance on this loan as
           $154,944 when the actual unpaid principal balance was $153,707. Due to Colony’s
           overestimation of the borrower’s closing costs and prepaid expenses, the loan
           amount before the mortgage insurance premium was overstated on the mortgage
           credit analysis worksheet. The loan amount reported was $157,650; however,
           based on the HUD-1 settlement statement the loan amount was $156,520.
           Therefore, the financed mortgage insurance premium at 1.5 percent should have
           been $2,347 and not $2,364 as shown on the mortgage credit analysis worksheet.

             The calculation of principal balance plus interest, plus closing costs and prepaid
             expenses, less the mortgage insurance premium refund, lowers the allowable
             mortgage amount to $158,867. The loan was insured for $160,014; therefore, the
             loan was overinsured by $1,147 ($160,014 minus $158,867).
             We agree with Colony that this loan should not be recommended for
             indemnification; however, we recommended that Colony reimburse HUD $1,147
             for the overinsured loan amount.

Comment 28 Colony objected to the inclusion of a recommendation that HUD’s associate general
           counsel for program enforcement determine legal sufficiency and if legally
           sufficient, pursue remedies under the Program Fraud Civil Remedies Act against
           Colony and/or its principals for incorrectly certifying that due diligence was
           exercised during the underwriting of 11 loans cited in our discussion draft audit
           report.




                                              66
              As stated in HUD Handbook 4000.4, REV-1, chapter 2-4(C), the underwriter must
              assume the following responsibilities: (1) compliance with HUD’s instructions, the
              coordination of all phases of underwriting, and the quality of decisions made under
              the program, (2) the review of appraisal reports, compliance inspections, and credit
              analyses performed by fee and staff personnel to ensure reasonable conclusions,
              sound reports, and compliance with HUD’s requirements, (3) the decisions relating
              to the acceptability of the appraisal, the inspections, the buyers capacity to repay the
              mortgage, and the overall acceptability of the mortgage loan for HUD insurance, (4)
              the monitoring and evaluation of the performance of fee and staff personnel used
              for the direct endorsement program, and (5) awareness of the warning signs that
              may indicate irregularities, and an ability to detect fraud, as well as the
              responsibility that underwriting decisions are performed with due diligence in a
              prudent manner.

              Colony respectfully requested that we use our discretion in making
              recommendations to ensure that national lenders receive consistent treatment.
              Colony claims that our recommendation constitutes selective enforcement in that it
              believes that Colony was audited under different standards than other national
              lenders we determined that did not comply with HUD’s underwriting requirements.
              In addition, Colony states that OIG’s audit reports (audit report numbers 2005-AT-
              1014 and 2006-NY-1001) on other lenders cited the same underwriting related
              issues as cited in this report, but refrained from including a recommendation related
              to the Program Fraud Civil Remedies Act. We disagree with Colony’s belief of
              inconsistent treatment. We are consistent in the treatment of Colony and other
              lenders since we have discretion when making audit recommendations.
              Specifically, it is at OIG’s discretion to include or exclude recommendations to
              HUD’s Office of General Counsel related to violations of the Program Fraud Civil
              Remedies Act in the audit reports.

Comment 29 Colony objected to our policy of making audit reports public before HUD makes a
           final determination on the recommendations. Colony respectfully requested that we
           include a disclosure. We recognize Colony’s objection; however, we disagree with
           Colony’s categorization of the process and the way it suggests the process works.
           HUD management officials are responsible for initiating action to resolve reported
           findings and recommendations.

Comment 30 We acknowledged in the audit report that Colony revised its quality control plan to
           adhere to HUD’s requirements. However, we disagree with its assertion that it did
           not disregard HUD’s quality control requirements. Colony conceded that its former
           quality control plan omitted certain elements required by HUD’s Federal Housing
           Administration. The Mortgagee Approval Handbook, 4060.1, REV-1, requires all
           Federal Housing Administration approved lenders, including loan correspondents,
           to implement and continuously have in place a quality control plan for the
           origination and/or servicing of insured mortgages as a condition of mandatory
           approval. Our finding accurately describes the conditions detected by the audit and
           the impact associated with the violation. In addition, Colony did not provide



                                                67
             adequate documentation during or subsequent to the audit report to support its
             claimed compliance.

Comment 31 We commend Colony for bringing this weakness to its employees’ attention in an
           effort to prevent this oversight from recurring in the future.




                                              68
Appendix C

                             FEDERAL REQUIREMENTS

                                  Loan Underwriting Requirements


HUD Handbook 4155.1, REV-5, CHG-1, chapter 1, section 4, paragraph 1-12, states that HUD’s
credit alert interactive voice response system need not be checked, but HUD’s limited denial of
participation and the General Services Administration’s exclusion lists are still required checks for
all borrowers. Chapter 2, section 1, paragraph 2-5, states that a person suspended, debarred, or
otherwise excluded from participation in the Department's programs is not eligible to participate in
FHA-insured mortgage transactions. The lender must examine HUD's limited denial participation
list and the government wide General Services Administration's exclusion lists and document this
review on the HUD 92900-WS/92900-PUR. If the name of the borrower, seller, listing or selling
real estate agents, or loan officer appears on either list, the application is not eligible for mortgage
insurance.

Chapter 2, section 1, paragraph 2-3, of the handbook states that if the credit history, despite
adequate income to support obligations, reflects continuous slow payments, judgments, and
delinquent accounts, strong compensating factors will be necessary to approve the loan.
Collections and judgments indicate a borrower’s regard for credit obligations and must be
considered in the analysis of creditworthiness with the lender documenting its reasons for
approving a mortgage when the borrower has collection accounts or judgments. The lender must
determine the borrower’s payment history of housing obligations through either the credit report,
verification of rent directly from the landlord (with no identity-of-interest with the borrower), or
verification of mortgage directly from the mortgage servicer, or through canceled checks covering
the most recent 12-month period.

Chapter 2, section 1, paragraph 2-4, of the handbook states that the residential mortgage credit
reports must access at least two named repositories and meet all of the requirements for the three
repository-merged credit reports, and provide a detailed account of the borrower’s employment
history. The report must also verify each borrower’s current employment and income (if
obtainable). It also must include a statement attesting to certification of employment and date
verified. If this information is not obtained through an interview with the employer, the credit-
reporting agency must state why this action was not taken.

Chapter 2, section 2, of the handbook states that the anticipated amount of income, and the
likelihood of its continuance, must be established to determine a borrower’s capacity to repay
mortgage debt. Income may not be used in calculating the borrower’s income ratios if it comes
from any source that cannot be verified, is not stable, or will not continue.

Chapter 2, section 2, paragraph 2-6, of the handbook states that the lender must verify the
borrower’s employment for the most recent two full years. The borrower also must explain any
gaps in employment spanning one month or more. To analyze and document the probability of


                                                   69
continued employment, lenders must examine the borrower’s past employment record,
qualifications for the position, and previous training and education and the employer’s
confirmation of continued employment.

Chapter 2, section 1, paragraph 2-3, of the handbook states that when delinquent accounts are
revealed, the lender must determine whether late payments were due to a disregard for or inability
to manage financial obligations or to factors outside of the borrower’s control. Major indications
of derogatory credit, including judgments or collections or recent credit problems, require
sufficient written explanation from the borrower. When reviewing the borrower’s credit report, the
lender must pay particular attention to recent and undisclosed debts. The lender must account for
any significant debt shown on the credit report but not listed on the loan application and must
obtain explanations for all credit report inquiries.

Chapter 2, section 3, paragraph 2-10, of the handbook states that all funds for the borrower’s
investment in the property must be verified and documented. Paragraph 2-10c states that the
lender must document the gift funds by obtaining a gift letter signed by the donor and borrower
that specifies the dollar amount of the gift; states that no repayment is required; shows the donor’s
name, address, and telephone number; and states the nature of the donor’s relationship to the
borrower. In addition, the lender must document the transfer of funds from the donor to the
borrower.

Chapter 2, section 4, of the handbook states that the borrower’s liabilities include all installment
loans, revolving charge accounts, real estate loans, alimony, child support, and all other continuing
obligations. In computing the debt-to-income ratios, the lender must include the monthly housing
expense and all additional recurring charges extending 10 months or more, including payments on
installment accounts, child support or separate maintenance payments, revolving accounts and
alimony, etc. Debts lasting less than 10 months must be counted if the amount of the debt affects
the borrower’s ability to make the mortgage payment during the months immediately after loan
closing; this is especially true if the borrower will have limited or no cash assets after loan closing.

Chapter 2, section 5, paragraph 2-12, of the handbook states that debt-to-income ratios are used to
determine whether the borrower can reasonably be expected to meet the expenses involved in
homeownership. If the mortgage payment expense-to-effective income ratio exceeds 29 percent
and/or the total fixed payment-to-effective income exceeds 41 percent, significant compensating
factors should be documented and recorded on the mortgage credit analysis worksheet.

Chapter 2, section 6, paragraph 2-14, of the handbook states that the lender must establish that the
eventual increase in mortgage payments will not affect the borrower adversely and likely lead to
default. The underwriter must document that the borrower meets one of the following criteria:
        a. The borrower has a potential for increased income that would offset the scheduled
           payment increases, as indicated by job training or education in the borrower’s
           profession or by a history of advancement in the borrower’s career with attendant
           increases in earnings.

       b. The borrower has demonstrated ability to manage financial obligations in such a way
          that a greater portion of income may be devoted to housing expenses. This criterion



                                                   70
           also may include borrowers whose long-term debt, if any, will not extend beyond the
           term of the buydown agreement.

       c. The borrower has substantial assets available to cushion the effect of the increased
          payments.

       d. The cash investment made by the borrower substantially exceeds the minimum
          required.

Chapter 3, section 1, paragraph 3-1, states that this document must be in the form of a direct
verification from the landlord or mortgage servicer or through information shown on the credit
report.

HUD Handbook 4000.4, CHG-2, paragraph 2-5, states that lenders are to obtain and verify
information with at least the same care that would be exercised if originating a mortgage when the
lender would be entirely dependent on the property as security to protect its investment. The
lender must review all closing statements, certifications on the closing statements, legal
instruments and other documents executed at closing, and certify to HUD that the transaction and
loan meet statutory and regulatory requirements of the National Housing Act and HUD, and that
the loan has been closed according to the terms and the sales price as specified in the sales
contract.

Fannie Mae’s Single Family Guide to Underwriting with Desktop Underwriter, chapter 2, states
that borrowers must have been employed a minimum of 30 days in their current positions to use
their income for qualifying purposes.

                                  Quality Control Requirements

HUD Handbook 4060.1, REV-1, “Mortgagee Approval Handbook,” chapter 6, requires

   •   The quality control plan to be in writing. Lenders must have fully functioning quality
       control programs from the date of their initial Federal Housing Administration approval
       until final surrender or termination of the approval.

   •   Quality control of servicing to be an ongoing function. Due to the importance of the
       aspects of servicing, lenders must perform monthly reviews of delinquent loan servicing,
       claims, and foreclosures.

   •   The quality control program to provide for the review and confirmation of information on
       all loans selected for review.

   •   Each direct endorsement loan selected for a quality control review to be reviewed for
       compliance with HUD’s underwriting requirements, sufficiency of documentation, and
       soundness of the underwriting.




                                                71
                           Program Fraud Civil Remedies Act Of 1986

Title 31, United States Code, section 3801, “Program Fraud Civil Remedies Act of 1986,”
provides federal agencies, which are the victims of false, fictitious, and fraudulent claims and
statements, with an administrative remedy to recompense such agencies for losses resulting from
such claims and statements; to permit administrative proceedings to be brought against persons
who make, present, or submit such claims and statements; and to deter the making, presenting, and
submitting of such claims and statements in the future.




                                               72
            Appendix D

                             SUMMARY OF UNDERWRITING DEFICIENCIES

                                                                                           Overstated                                Automated
                                                                                            income/                                 underwriting
   Loan        Mortgage     Underwriting Insurance Amount of Amount of Exceed     Credit   understated    Source of   Unsupported   conditions Not Over-insured
  number       amount          method     status    claim       loss     ratios   issues    liabilities    funds        income          Met           loan
*201-3402921    148,822      Manual       Claim    $154,383                X           X         X
411-3737859     67,599       Manual       Claim     78,470    $36,950      X                                 X
413-4227951     110,300      Manual       Claim    125,661     48,994      X
413-4254327     157,731      Manual       Claim     23,832                 X           X         X
413-4255461     160,014      Manual       Claim    167,609                                                                                             X
413-4263790     67,196       Manual       Claim     18,079                 X           X         X           X
413-4288944     128,150      Manual       Claim     28,632                 X           X         X
413-4313543     135,407     Automated     Claim    146,275     55,533                                                     X              X
413-4315823     94,242       Manual       Claim    103,343     56,148      X
   Totals      $1,069,461                          $846,284   $197,625     7           4          4          2            1              1              1



                  We are not requesting indemnification for this loan; however, we are requesting that this
            loan be remedied under the Program Fraud Civil Remedies Act for an incorrect certification.




                                                                                  73
Appendix E

                    NARRATIVE CASE PRESENTATIONS

Loan number: 201-3402921

Mortgage amount: $148,822

Section of Housing Act: 203(b)

Loan purpose: Purchase

Date of loan closing: September 28, 2004

Status as of February 28, 2007: Claim

Payments before first default reported: Three

Claim paid by HUD: $154,383

Summary:

Colony’s underwriter (H055) failed to document that the borrower met the requirements for an
interest rate buydown in accordance with HUD Handbook 4155.1, REV-5, CHG-1, paragraph 2-
14, and establish that the borrower would be able to afford the mortgage payments once the
buydown agreement expired. There was also no documentation in Colony’s file or HUD’s
casebinder to show that the borrower would have the ability to sustain the mortgage payments once
the buydown agreement expired and the borrower’s monthly mortgage payment increased
significantly.

In addition, the underwriter overstated the borrower’s income and understated the liabilities. The
loan closed on September 28, 2004, when the borrower’s last pay stub ending August 22, 2004,
showed the borrower’s year to date monthly earnings as $2,360. Additionally, the borrower’s
credit report, dated May 13, 2004, showed a monthly payment of $325 to Brown Forman
employee credit union with a balance of $1,498. Although it would not take the borrower more
than 10 months to payoff the debt, we included it in our evaluation of the borrower’s ability to
repay the debt. According to HUD Handbook 4155.1, REV-5, CHG-1, paragraph 2-11, debts
lasting less than 10 months must be counted if the amount of the debt affects the borrower’s ability
to make the mortgage payment during the months immediately after loan closing; this is especially
true if the borrower will have limited or no cash assets after loan closing. In this instance, the
borrower only had $104 in available assets at closing. If the correct monthly income had been
used and the Brown Forman debt had been included, the total fixed payment-to-income ratio using
the reduced interest rate would have been 45.58 percent. The underwriter provided two
compensating factors, including income not used and low ratio. These compensating factors
would not be valid for the reasons stated previously.


                                                 74
Further, the borrower satisfied a judgment for a state tax lien in May 2003 and satisfied a judgment
with 1st United Federal Credit Union in July 2004, the loan closed September 28, 2004. In
addition, the underwriter failed to obtain an explanation for the two overdraft and one returned
check fees shown on the coborrower’s bank records between August 2 and September 13, 2004.
The inability to make timely payments has a direct impact on the borrowers’ ability to meet the
future housing expense of $1,012, which was an increase of $647 from the borrower’s current
housing expense. The underwriter should have considered these credit issues before approving the
loan. The borrower defaulted after only three payments.

HUD’s Quality Assurance Division previously reviewed this loan and found similar findings;
therefore, we will not request indemnification. However, we recommended that this loan be
pursued under the Program Fraud Civil Remedies Act for an incorrect certification.




                                                75
Loan number: 411-3737859

Mortgage amount: $67,599

Section of Housing Act: 203(b)

Loan purpose: Purchase

Date of loan closing: April 27, 2004

Status as of February 28, 2007: Claim

Payments before first default reported: Three

Loss to HUD: $36,950

Summary:

Colony’s underwriter (H055) approved the loan without documenting any compensating factors on
the mortgage credit analysis worksheet. The loan was approved when the mortgage payment-to-
income ratio exceeded HUD’s required percentage by 9.5 percent. Paragraphs 2-12 and 2-13 of
HUD Handbook 4155.1, REV-5, specify that the ratio of mortgage payments to effective income
(front ratio) generally may not exceed 29 percent and the ratio of total fixed payments to effective
income (back ratio) may not exceed 41 percent unless significant compensating factors are
presented.

In addition, the borrower paid more than $500 at closing; however, the source of the funds was not
determined as required by HUD Handbook 4155.1, REV-5, section 2-10.




                                                76
Loan number: 413-4227951

Mortgage amount: $110,300

Section of Housing Act: 234(c)

Loan purpose: Purchase

Date of loan closing: November 24, 2003

Status as of February 28, 2007: Claim

Payments before first default reported: Four

Loss to HUD: $48,994

Summary:

Colony’s underwriter (H055) failed to document that the borrower met the requirements for an
interest rate buydown in accordance with HUD Handbook 4155.1, REV-5, CHG-1, paragraph 2-
14, and establish that the borrower would be able to afford the mortgage payments once the
buydown agreement expired. The mortgage payment-to-income and fixed payment-to-income
ratios when using the reduced interest rate were 29.52 and 40.36 percent, respectively.
Additionally, there was no documentation in the file to show that the borrower would have the
ability to sustain the mortgage payments once the buydown agreement expired and the borrower’s
monthly mortgage payment increased significantly. The borrower defaulted after only four
payments.

The borrower’s verification of employment showed that the borrower received commission income
in addition to a weekly salary of $600. However, the verification of employment form did not
state the amount or frequency of the earned commission. Since the borrower had only been
employed for one month before closing and had not received commission income in the past, the
underwriter should have documented the borrower’s ability to sustain the mortgage payment once
the buydown agreement expired. The borrower qualified for the loan with a mortgage payment of
$774. The payment after expiration of the buydown assistance would be approximately $909, and
without an increase in income within the two years of the buydown agreement, the mortgage
payment-to-income, and fixed payment-to-income ratios would increase to 34.96 percent and
45.81 percent, respectively. The underwriter cited low credit use as a compensating factor on the
mortgage credit analysis worksheet. However, the compensating factor given was not adequate to
support the mortgage payment-to-income and fixed payment-to-income ratios.




                                               77
Loan number: 413-4254327

Mortgage amount: $157,731

Section of Housing Act: 203(b)

Loan purpose: Purchase

Date of loan closing: November 25, 2003

Status as of February 28, 2007: Claim

Payments before first default reported: Nine

Claim paid by HUD: $23,832

Summary:

Colony’s underwriter (H055) failed to document that the borrower met the requirements for an
interest rate buydown in accordance with HUD Handbook 4155.1, REV-5, CHG-1, paragraph 2-
14, and establish that the borrower would be able to afford the mortgage payments once the
buydown agreement expired. The borrower’s mortgage payment-to-income and fixed payment-to-
income ratios using the reduced interest rate were 24.03 and 30.57 percent, respectively.
Additionally, there was no documentation in the file to show that the borrower would have the
ability to sustain the mortgage payments once the buydown agreement expired and the borrower’s
monthly mortgage payment increased significantly.

The borrower qualified for the loan with a mortgage payment of $1,097. However, the mortgage
payment after the buydown agreement expired would be approximately $1,249, and without an
increase in income through the two years of the buydown assistance, the mortgage payment-to-
income ratio would be 30.99 and the fixed payment-to-income ratio would be 43.76 percent.

The underwriter also approved the loan without adequately analyzing the stability of the
borrower’s income. The borrower was employed by NCR Corporation from May 1, 1999, through
November 1, 2002, with an annual salary of $15,819. The borrower’s title was not shown on the
uniform residential loan application. The borrower then became employed as a police officer for
nine months with an annual salary of $37,897 from November 1, 2002, through July 1, 2003. Two
months after his employment with the police department ended, the borrower became employed as
a truck driver on October 3, 2003, with an annual salary of $31,200. Due to changes in the
borrower’s employment, the borrower’s income decreased from $37,897 to $31,200 for a loss of
$6,697 in income.

Additionally, the borrower did not explain the gap in employment from July 3 to October 2, 2003.
There was also no explanation for the gap in employment for the coborrower from January 1,
2001, to October 13, 2003. HUD Handbook 4155.1, REV-5, CHG-1, paragraph 2-6, states that the
lender must verify the borrower’s employment for the most recent two full years. The borrower



                                               78
also must explain any gaps in employment spanning one month or more. To analyze and
document the probability of continued employment, lenders must examine the borrower’s past
employment record, qualifications for the position, and previous training and education and the
employer’s confirmation of continued employment.

Further, the credit report, dated November 14, 2003, revealed a credit inquiry from United
Consumer Financial Services on September 8, 2003. The credit report shows that contact with the
borrower did not take place to clear the inquiry. There was no letter in the file from the borrower
explaining the inquiry. There were also four collection accounts identified on the credit report
dated from September 1999 and as recent as July 2003. All four collections were paid at closing;
however, the borrowers did not provide any written explanations for the collection accounts. The
credit report pulled during the quality control review dated June 24, 2004, shows that an account
with United was opened in September 2003 for $2,003 with a monthly payment of $55.




                                                79
Loan number: 413-4255461

Mortgage amount: $160,014

Section of Housing Act: 203(b)

Loan purpose: Refinance

Date of loan closing: November 26, 2003

Status as of February 28, 2007: Claim

Payments before first default reported: One

Claim paid by HUD: $167,609

Summary:

Colony’s underwriter (H055) approved the loan when the streamline refinance was over-insured.
The calculation of principal balance plus interest, plus closing costs and prepaid expenses, less the
mortgage insurance premium refund, lowers the allowable mortgage amount to $158,867. The
loan was insured for $160,014; therefore, the loan was overinsured by $1,147.

In addition, the underwriter did not notate on the mortgage credit analysis worksheet if the
borrower had been checked against the limited denial of participation list. In accordance with
HUD Handbook, 4155.1, REV-5, HUD’s Federal Housing Administration-approved lenders must
examine the HUD limited denial of participation list and document the reviews on the HUD-
92900-PUR or the HUD–92900-WS worksheets. If the name of any party to the transaction
appears on the list, the application is not eligible for mortgage insurance. Loans processed as
streamline refinances also require checks against this exclusion listing.




                                                 80
Loan number: 413-4263790

Mortgage amount: $ 67,196

Section of Housing Act: 203(b)

Loan purpose: Purchase

Date of loan closing: December 5, 2003

Status as of February 28, 2007: Claim

Payments before first default reported: Three

Claim paid by HUD: $18,079

Summary:

Colony’s underwriter (H055) approved the loan without a gift letter from the seller signed by the
donor and borrower that specifies the dollar amount of the gift; states that no repayment is
required; shows the donor’s name, address, and telephone number, and states the nature of the
donor’s relationship to the borrower in accordance with HUD Handbook 4155.1, REV-5,
paragraph 2-10. The settlement statement showed that the borrower needed $4,159 to close the
loan on December 5, 2003. The uniform residential loan application showed a $4,850 gift of
equity as the source of funds. Without the gift of equity, the borrower did not have sufficient
funds to close the loan.

In addition, the underwriter understated the borrower’s liabilities. The borrower’s credit report,
dated December 3, 2003, showed a monthly payment of $173 to Garden Financial with a balance
of $1,598. Although it would not take the borrower more than 10 months to payoff the debt, we
included it in our evaluation of the borrower’s ability to repay the debt. According to HUD
Handbook 4155.1, REV-5, CHG-1, paragraph 2-11, debts lasting less than 10 months must be
counted if the amount of the debt affects the borrower’s ability to make the mortgage payment
during the months immediately after loan closing; this is especially true if the borrower will have
limited or no cash assets after loan closing. In this instance, the borrower did not have any assets
at closing. If the underwriter had not excluded the Garden Financial debt, the mortgage payment-
to-income and total fixed payment-to-income ratios would have been 37.07 and 52.50 percent,
respectively. The underwriter provided two compensating factors, low debt use and low housing
costs. The compensating factors given were not adequate to support the mortgage payment-to-
income and the fixed payment-to-income ratios. The borrower defaulted after only three
payments.

Further, the underwriter failed to verify the borrower’s rental payment history directly from the
landlord or mortgage servicer or through information shown on the credit report as required in
HUD Handbook 4155.1, REV-5, CHG-1, paragraph 2-3. The verification of rent was faxed from




                                                 81
the borrower’s employer. There is no indication in Colony’s file or HUD case binder that the
lender received the original letter and verified the document.




                                               82
Loan number: 413-4288944

Mortgage amount: $ 128,150

Section of Housing Act: 234(c)

Loan purpose: Purchase

Date of loan closing: March 5, 2004

Status as of February 28, 2007: Claim

Payments before first default reported: 13

Claim paid by HUD: $28,632

Summary:

Colony’s underwriter (H055) approved the loan using a residential mortgage credit report that did
not meet HUD’s requirements. Specifically, the borrower’s employment history was not included
on the credit report. The underwriter also failed to include all of the borrower’s liabilities when
evaluating the borrower’s ability to repay the debt. The credit report showed two student loans
with a total monthly payment of $307 that were in deferment status. Contrary to requirements in
HUD Handbook 4155.1, REV-5, CHG-1, paragraph 2-11, there was no documentation to show
that the deferment period would last at least 12 months beyond the mortgage closing date. Neither
Colony’s file nor HUD’s case binder contained any documentation that the borrower requested and
received an extension of forbearance for the student loans. In addition, the underwriter excluded
three recurring obligations with a total monthly payment of $101. There was also no
documentation to show that the loans had been satisfied.

If the student loans and recurring obligations had not been excluded, the total fixed payment-to-
income ratio using the reduced interest rate would have been 60.64 percent. The underwriter
provided credit as a compensating factor. The compensating factor was not adequate to support
the fixed payment-to-income ratio.

Further, the borrower’s rent was not fully verified. The credit report indicated that the borrower’s
current landlord refused residence verification. The credit report only verified a nine-month
period. The underwriter failed to determine the borrower’s payment history of housing obligations
covering the most recent 12-month period.




                                                 83
Loan number: 413-4313543

Mortgage amount: $135,407

Section of Housing Act: 203(b)

Loan purpose: Purchase

Date of loan closing: March 30, 2004

Status as of February 28, 2007: Claim

Payments before first default reported: Seven

Loss to HUD: $55,533

Summary:

The loan was processed through Fannie Mae’s desktop underwriter with an approve/eligible rating.
The income on the mortgage credit analysis worksheet shows that the borrower’s gross monthly
salary was $2,532. The underwriting findings report requires the borrower’s employment be
supported by the most recent year-to-date pay stub documenting one full month’s earnings. There
was no pay stub in Colony’s file or HUD’s case binder.

In addition, the borrower had only been employed for one day before the loan was approved. The
verification of employment, dated March 10, 2004, revealed that the borrower was to start work on
March 22, 2004, one day after the desktop underwriter run date of March 23, 2004. The loan
closed on March 30, 2004, eight days after the borrower started his new employment. Fannie
Mae’s Single Family Guide to Underwriting with Desktop Underwriter, chapter 2, states that
borrowers must have been employed a minimum of 30 days in their current position to use the
income for qualifying purposes. The borrower’s monthly pay prior to the loan closing was $1,459.
When using borrower’s current monthly income the mortgage payment expense-to-effective
income ratio was 55.28 percent and/or the total fixed payment-to-effective income was 81.65
percent when using the reduced interest rate. The underwriter should have resubmitted the loan.




                                                84
Loan number: 413-4315823

Mortgage amount: $94,242

Section of Housing Act: 203(b)

Loan purpose: Purchase

Date of loan closing: July 23, 2004

Status as of February 28, 2007: Claim

Payments before first default reported: Three

Loss to HUD: $56,148

Summary:

Colony’s underwriter (H055) failed to document which of the criteria the borrower met according
to the underwriting requirements listed in HUD Handbook 4155.1, REV-5, CHG-1, paragraph 2-
14, and establish that the borrower would be able to afford the mortgage payments once the
buydown agreement expired. The mortgage payment-to-income ratio when using the reduced
interest rate was 34.39 percent. The underwriter did not document any compensating factors to
support the qualifying rate when the loan was approved. In addition, there was no documentation
in Colony’s file or HUD’s case binder to show that the borrower would have the ability to sustain
the mortgage payment once the buydown agreement expired and the borrower’s monthly mortgage
payment significantly increased. The borrower defaulted after only three payments.

The borrower’s annual income for 2003 was $18,955 with an expected income of $21,300 for
2004. Therefore, the borrower’s income would increase by approximately 12 percent. The
borrower qualified for the loan with a mortgage payment of $573. The payment, after expiration
of the buydown assistance, would be approximately $688 and assuming a 12 percent increase in
income each year through the two years of the buydown agreement, the mortgage payment-to-
income ratio would be approximately 31 percent. However, there was no indication on the
verification of employment form or other related documentation in Colony’s file or HUD’s case
binder that the borrower would receive an increase in income.

Paragraphs 2-12 and 2-13 of HUD Handbook 4155.1, REV-5, specify that the ratio of mortgage
payments to effective income (front ratio) generally may not exceed 29 percent and the ratio of
total fixed payments to effective income (back ratio) may not exceed 41 percent unless significant
compensating factors are presented. The handbook allows greater latitude in considering
compensating factors for the front ratio than the back ratio. However, the loan was approved when
the borrower’s mortgage payments after the buydown would result in approximately 37 percent
increase.




                                                85
     Appendix F

      SUMMARY OF QUALITY CONTROL DEFICIENCIES USING
                  HUD’s REQUIREMENTS

                         Written                                                                   Untimely quality
                     reverification of   Written reverification   New credit                        control review       Quality control
                       borrowers’        of income, deposits &         report   Desk review of   (more than 90 days        review not
       Loan number    employment               gift letters        obtained       appraisal      after 90-day default)     performed
1      413-4350542         X                      X
2      413-4357245         X                      X
3      413-4435450         X                      X
4      413-4315823                                                                                                             X
5      413-4288582         X                      X                                   X
6      413-4301666         X                      X                      X            X
7      411-3682580         X                      X                                   X
8      411-3808529          X                     X                                                       X
9      413-4303594         X                      X
10     413-4256827         X                      X
11     413-4317912                                                                    X
12     413-4298255                                                       X            X
13     151-7538549         X                                                                              X
14     151-7940336         X                      X
15     413-4259153         X                      X                                                       X
16     413-4459174         X
17     201-3326116         X                      X
18     413-4322456         X                      X
19     413-4370560         X                      X                                                       X
20     412-5290164         X                      X
21     412-5217302         X                      X
22     413-4449778         X
23     413-4321762         X                      X                                                       X
24     413-4343926         X                      X
25     413-4295866         X                      X                                                       X
26     413-4409473         X                      X                                                       X
27     201-3305349         --                     --                     --           --                  --                   --
28     413-4226100         X                      X                                   X
29     413-4181548         X                                                          X
30     201-3386887         X                                                          X
31     413-4390331         X                      X                                   X
32     413-4429035         X                      X
33     413-4468022         X
34     413-4298045         X                      X                                                       X
         Totals            30                     24                     2            9                   8                     1




                                                                  86
